      DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General


                                                                            Washington, D.C. 20201




August 17, 2011

TO:            Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          /Lori S. Pilcher/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Audit of the Centers for Disease Control and Prevention’s Shelf-Life Extension
               Program (A-04-11-01001)


The attached final report provides the results of our audit of the Centers for Disease Control and
Prevention’s Shelf-Life Extension Program. We conducted the audit in response to an Office of
Inspector General (OIG) Hotline complaint.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector General
(OIG) post its publicly available reports on the OIG Web site. Accordingly, this report will be posted
at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-04-11-01001 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   AUDIT OF THE SHELF LIFE
 EXTENSION PROGRAM (SLEP)
 AT THE CENTERS FOR DISEASE
  CONTROL AND PREVENTION




                       Daniel R. Levinson
                        Inspector General

                          August 2011
                         A-04-11-01001
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                             INTRODUCTION



BACKGROUND

To ensure preparedness for war or other contingencies, the Department of Defense (DoD)
maintains significant pre-positioned reserves of critical medical material. The Shelf Life
Extension Program (SLEP) is a joint DoD and Food and Drug Administration (FDA) program.
It was created to enable DoD to defer drug replacement costs by delaying the replacement of
certain drugs that have useful lives beyond their expiration dates.

The Centers for Disease Control and Prevention (CDC) maintains the Strategic National
Stockpile (Stockpile), which contains significant amounts of pre-positioned drugs for use in
responding to emergencies throughout the United States. Although each of the drugs has an
expiration date set by the manufacturer, if a drug is stored properly, its shelf life can be extended
beyond that date. In 2002, CDC entered into an interagency agreement with DoD to use the
SLEP to defer the costs of replacing the Stockpile inventory. Under the agreement, FDA tests
SLEP-eligible drugs 1 that are stored in the Stockpile inventory to determine whether the drugs’
useful lives can be extended beyond their original expiration dates.

FDA evaluates drugs for shelf-life extension by testing samples that CDC submits. The Defense
Medical Standardization Board (DMSB) coordinates the program and is the interface between
the SLEP participants 2 and FDA. Each week, CDC updates its drug inventory and uploads that
information to DMSB’s automated database. DMSB reviews the inventory to identify drugs
nearing their expiration and presents FDA and CDC with a list of drugs (including their lot
numbers) that are potential candidates for testing. CDC then provides DMSB and FDA with a
list of drugs ranked by priority for testing. Finally, FDA determines which drug lots it will test
and sends CDC a request for samples of drugs from the specified lots. FDA does not test all
items presented to it as candidates for testing because it does not have sufficient laboratory
resources. Also, FDA does not normally test any lot of material valued at less than $10,000.

We conducted this audit in response to an Office of Inspector General Hotline complaint.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether CDC was using the SLEP to extend the
expiration dates of Stockpile drugs.



1
  The Defense Medical Standardization Board (DMSB) advises CDC on which drugs are SLEP-eligible. (The shelf
lives of some drugs cannot be extended.)
2
    Participants are CDC and components of DoD.


                                                     1
Scope

The scope of our audit was SLEP-eligible Stockpile drugs that expired during the period
February 28, 2007, through June 30, 2010. We performed fieldwork from March through May
2011 at CDC in Atlanta, Georgia.

Methodology

To accomplish our objective, we reviewed applicable CDC policies and interviewed CDC
Stockpile officials to gain an understanding of the SLEP policies and procedures and testing
process.

We also reviewed the interagency agreement that CDC has with DoD for CDC’s participation in
the SLEP.

From a list of SLEP-eligible drugs that CDC stores, we indentified for review a population of
1,463 drug lots that expired during the period February 28, 2007, through June 30, 2010. We
judgmentally selected 17 drug lots, one for each of the 14 SLEP-eligible drugs in the Stockpile. 3

For each selected drug lot, we determined whether CDC prioritized and entered the drug lot into
the automated database and whether FDA agreed to test the drug lot. If FDA tested the drug lot,
we determined whether CDC followed up on the results by either relabeling drugs in the lot with
a new expiration date, destroying the drug lot, or returning the drug lot to the manufacturer, as
appropriate. We reviewed CDC’s internal controls to the extent necessary to accomplish the
objective of our audit. We limited our review to obtaining an understanding of CDC’s controls
and specific responsibilities under the SLEP.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                        RESULTS OF AUDIT

CDC used the SLEP to extend the expiration dates of Stockpile drugs when possible. Of the 17
SLEP-eligible drug lots included in our sample, FDA did not accept 9 lots for testing. CDC
destroyed or returned these drug lots to the drug manufacturer for credit. FDA tested the
remaining eight drug lots and extended their expiration dates. CDC had relabeled or was in the
process of relabeling these eight drug lots at the conclusion of our audit.



3
  Some drugs come in multiple forms (for example, powder and capsule). One of the 14 SLEP-eligible drugs came
in two forms and one came in three forms, for a total of 17 drug lots.



                                                     2
